ft r,
No . <G ."L

O'1 c.

No. 20-4070; 12-CV-6180
Supreme Court, U.S.
FILED .

AUG 1 8 2021

»
1

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

BERNABE ENCARNAGION
(Your Name)

— PETITIONER

vs.

GLENN GOORD. et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT OF NEW YORK
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BERNABE ENCARNACION
(Your Name) PETITIONER PRO SE
639 EXCHANGE STREET, P.O. BOX 149
(Address)
ATTICA, NEW YORK 14011-0149
(City, State, Zip Code)
N/A
(Phone Number)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[xl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A.
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X| is unpublished.
The opinion of the United States district court appears at Appendix _B
the petition and is
[X] reported at En^macion v. Goorri: 2020 Uf.
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix '
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[X} For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was May 21, 2012 _______
*

[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

TABLE OF CONTENTS
PAGE
4

ii

TABLE OF AUTHORITIES

JURISDICTIONAL STATEMENT
%■

i
i
i

iii

STATEMENT OF MATERIAL FACTS

1-3

QUESTION PRESENTED

3

BACKGROUND

4-8

STANDARD OF REVIEW

8-10

SUMMARY OF ARGUMENT
POINT I

10-12

The Court Have Personaljurisdiction Over Defendants
And Judicial Jurisdiction Over The Case As The Court
of Appeals Order Was A Final Decision And This
Petition Timely Filed. Rule 13(1) ............. ...............

13

POINT II The United States Court Of Appeals Lacks Authority
v“
To Sua Sponte Dismissed An Appeal Timely Filed • -

14-16

POINT III This Court Should Vacated The Judgment Of The
District Court Granted The Defendants Motion For
Summary Judgment And Without Consider The Merits Of
Plaintiff's Claims Dismissed The Action As Untimely
And The Case Remanded For Further Proceedings ___

17-18

POINT IV This Court Should Reverse And Vacated The District
Court Dismissal Of Plaintiff's Double jeopardy
Claim, Of His Conflict Of Interest Claim And
Appointed Of Pro Bono Counsel And Re-Instated
Because The District Court Erred In Its Denial And
Dismissal ____________________________________

18-21

CONCLUSION

21

,«*

■

-1-

TABLE OF AUTHORITIES

PAGE

CASES

Caperton v. A.T. Massey Coal Co. Inc.
556 U.S. 865, 129 S.Ct. 2252 (2009)
19
Cleveland Bd. of Sduc. v. Loudermill,
13
470 U.S. 532, 542 (1985) _________
Farmer v. Bremer,
6
511 U.S. 825 (1994) _____________
Houston v. Lack,
8, 9|l 14
487 U.S. 266, 271 (1988) _________
Mallard v. U.S. Dist. Ct.
20, 21
490 U.S. 296, 298 (1989) _________
McDough v. Smith,
13,14,15,18
139 S.Ct. 2149 (2009) ____________
Neitzka v. Williams,
11
49 U.S. 318, 323 (1989) __________
Owong v. Chore,
13,14,15,16,18
109 S.Ct. 573 (1989)
Tamey v. Ohio,
19
273 U.S. 510 ____
Wolff v. McDonnel,
5,9,19
418 U.S. 539 (1974)
Williams v. Pennsylvania,
19,20
136 S.Ct. 1899 (2016)
Convington Indus. Inc. v. Resitoi A.G., 629 F.3d 730, 732 (1980) __ 13
7
Encarnacion v. Rock, 290 Fed. Appx. 19 (2d Cir. 2014) ______
7,16,18
Encaraacion v. Goord, 619 Fed, Appx. 61 (2d Cir. 2016) ______
8
Encarnacion v. Dann, 80 Fed.Appx. 140 (C.A.2. 20030 ________
18
Gonzalez v. Hosty, 802 F.3d 212 (2015) ____________________
7
Harris v. Miller, 818 F,3d 4911 65 (2d Cir. 2016) ___________
8
Johnson v. Coombe, 156 F. Spp.2d 273, 277 (S.D.N.Y.2001) ____
11
Robles v. Coughlin, 725 F.2d 12, 16 (2d Cir.1983) __________
9,11
Wiker v.Schult, 717 F.3d 119, 127 (2d Cir. 2013) ___________
5,9,19
Encarnacion v. Mcginnis, No. 01-cv-6380, (W.D.N.Y.2002)
■
20
Rashid v. McGraw, No. OlOcv-10986 2002 WL 31427349 (SDNY 2002)_
Tafari V. Rock, 2012 WL 1340799 (NDNY 2012) _______
Howard V. Coughlin, 212 A.D.2d 852 (A.D.4 Dept. 1995)

-ii-

5
4,5,6119,19

JURISDICTIONAL STATEMENT
Plaintiff Bernabe Encarnacion, an state prisoner, by pro se, aftre
spended more than 11 years in solitary in. the Specila Housing Unit (SHU)
from February 17, 1998 thru to March 9, 2009, he timely filed this action
§

on March 7, 2012 seeking relief pursuant to 42 USC § 1983, alleging that he
was subjected to due process-double jeopardy and cruel and unusual
punishment in violation of the Fifth and Eighth Amenfments.
On October 27, 2020, the District Court (Siragusa, J.) wrongful
entered judgment in defendants favor and dismissed the case as untimely.
Plaintiff timely appealed, filed notice of appeal and motions for in forma
pauperi relief, appointed of pro bono counsel to represented him in this
case, granted monetary awards as prevailing party in Encarnacion v. Rock,
580 Fed. Appx..l9; Encarnacion v. Goord, 669 Fed. Appx. 61), and to leave to
appeal.
By an May 21, 2021, the Court of Appeals for the Second Circuit of New
York sua sponte denied plaintiff's motions and dismissed his appeal.
The Decision of the. Second Circuit is dated May 21, 2012, mailed on
May 25, 2021 and received by plaintiff on or about May 28, 2012, entered
Mandated on July 6,.2021 (Appendix Al-2).
Pursuant to Rule 13(1) of the Supreme Court Rules, an appeal to final
decision of a Circuit Court must be filed within ninety (90) days of ths
date of said decision or order or judgment.
This appeal is authorized, and timely filed, given the Supreme Court
judicial jurisdiction over both the case and the defendants.

iii-

STATEMENT OF MATERIAL FACTS
On August 11, 1996, while Plaintiff was incarcerated at Auburn C.F.
/

(ACF) Special Housing Unit (SHU), he received a misbehavior report dated
8/10/96, charging him with fighting, assaulted on inmate, and contraband
i

*

weapon (8/10/96 MR), after he was involved in a fist fight with inmate
Daniel Roberts (Roberts) at ACF yard, who he later died accidentally by
affixation (8/10/96 MR). See Appendix D6-8, which was issued just short
period of time before Plaintiff was to be released on early parole with
deportation only ordered by Federal Court (Levington, J.) in 1995. (See
Appendix Dl-3).
The contranband weapon and related charges were dismissed & expunged
at the start of the disciplinary hearing and Plaintiff was released from
SHU, thus to fact that: 1) Roberts death was accidental; and

2) that

inmate Angel Hernandez were reponsible of Roberts' artificial stabs & cut
wounds, after a prison disciplinary hearing, in August 1996 Hernandez was
required to serve 5 years in the SHU. (see Appendix Dl-17).
On 2/17/98, while incarcerated at Elmire C.F. (ECF), plaintiff was
places SHU and on 2/19/98, he received a second MR dated 2/18/98 in
connection with the 8/10/96 incident at ACF yard, charging him with murder
& contraband weapon, after a prison disciplinary hearing he was sentened to
10 years in the SHU with lost of all privilegies and 5 years lost of
goodtime on the second MR (see Appendix D4-6, 14-15).
On March 9, 2009, Plaintiff was released from SHU and his § 1983 was
filed on March 7, 2012 within the New York 3 years period of statute of
limitation (see Appendix Cl-2). In this action for damages brought against
4 DOCS employed defendants pursuant to 42 USC § 1983, Plaintiff alleges

1

I

that he was sujected to Fifth Amendment due porcess-double jeopardy when
defendants charged him twice (on 8/10/96 and 2/17/98) for the incident of
8/10/96 at ACF main yard (Appx. D4, 6, & 14): and Eighth Amendment clause
of cruel and unusual punishment: more than 11 years confinement in SHU,
with deprivations of hygiene products, daily meals, and daily outdoor

f

excerses for more of the period of his over 11 years in the SHU at ECF,
Southport GF (SCF), and Great Meadow CF (GMCF) among many many more other
deprivations.
On August 27, 2012, the District Court (Larimer, J.) sua sponte
dismissed with prejudice his 1983. Plaintiff appealed. The Second Circuit
dismissed the district court's Aug. 12, 2012 dismissal decision and
remanded on Sept. 23, 2014 (Appendix A7-8). On Nov. 6, 2014, the District
Court (Larimer, J.) sua sponte dismissed the complaint in remanded and
!■

granted leave to filed amended complaint.
On Jan. 25, 2015, Plaintiff filed his amended complaint. On Aug. 20,
2015, The District Court (Larimer, J.) sua sponte dismissed with prejudice
the amended complaint. Plaintiff appealed. On Oct. 7, 2016, the Second
Circuit vacated in part the district court's Aug. 20, 2015 dismissal
decision and remanded (Appendix A4-6). The district court disregarded the
Second Circuit order in remanded, and on Oct. 27, 2020, the District Court
(Siragusa, J.) wrongful granted judgment on defendants favor and dismissed
with prjudice his § 1983 as untimely (Appendix B), Plaintiff's DOCS medical
records refuted defendants allegation that Plaintiff was released from SHU
on Aug.

15,

2008,

and the district court unsupported finding that

Plaintiff's SHU ended on Nov. 15, 2008 (see Appx. Cl-2). Plaintiff timely
appealed. On May 21, 2021, the Second Circuit denied plaintiff's motion for
IFP relief, appointment of pro bono counsel, and to award costs as

2

prevailing party and dimissed his appeal wrongful. See Appx. Al-6, B and

ci-2.
QUESTIONS PRESENTED
1.
¥

Whether the Court of Appeals erred on denied Plaintiff's motions and

dismissed his appeals, ruling it "lacks an arguable basis either in law or
in-fact", contradiced its early finding in the case. See Appx. A4-8 & Cl2.
2.

Whether the district court erred in entered judgment in defendants

favor and dismissed his § 1983 as untimely, with records and evidences
shown that this action was timely filed on 3/7/12. See Appx. Cl-2.
3.

Whether the district court erred in dismissed his double jeopardy

claim and denied Plaintiff's motions for reexcussal of judge Siragusa from
this case conflicte of interest ground and appointed of pro bono counsel.

3

BACKGROUND
While waiting on a court-ordered early paprole release with
deportation only, on August 10, 1996, Roberts assaulted Plaintiff again in
the main yard of ACF. Roberts later'died by affixation yhen any air is
getting into his lungs before and during CPR. After his death security and
medical staffs found stuck in Roberts’ throat a packket of drug he swolled
to conseal it from COs during a pat frisk, three stab wounds and a cut.
Appx. D4, 7-8.

At not time did plaintiff possessing any weapon during the

fist fight (Appx. D5, 9-10). Roberts had aasaulted Plaintiff before in the
main yard of ACF in June 1996.

See Appendix D21-22; Ehcamacion V. Dann|!

80 Fed. Appx. 140 (C.A.2 (NY) 2003).
The investigations conduced by DOCS, Inspector Gen. and State Police
investigators showd inmate J. Becker’s friend(s) was responsible of
Roberts’ stabs wounds and cut. (Appendix D5, 9-13). Based on those findings
all charges filed against Plaintiff in connection to the 8/10/96 at ACF
main yard were dismissed & expunged at the start of the disciplinary
hearing. Appx. D6. After five moths in the SHU, from 8/10/96 to 1/8/97, he
was transferred to ECF and released to the generla population (GP).
Almost two later on 2/17/98, defendants palced plaintiff in the SHU,
issued a second MR and sentenced to 10 years in the SHU in connection with •
the same incident of 8/10/96 at ACF main yard after all charges filed
against him in connection with the 8/10/96 incident at ACF main yard in the
fisrf MR were dismissed and expunged. Appx. D4, 6, 14-15).
I*1 Howard v. Coughlin. 212 A.D.2d 852 (1995), the Supreme Court held:
"Second determination of

prisoner's

guilt for violation of prison

desciplinary rule could not be upheld after original determination was
expunged due to lack of valid misbehavior report, even though prisoner was

4

-

later criminally convicted for the misbehavior; effect, of upholding second
determination of guilt for rule violation would be to impose penalty on the
inmate for actions expunged in first disciplinary proceeding, even though
rules allegedly violated were diferent". Appendix D19-20, Howard, supra,
/

Appx. D4,6, 14-15.

In Plaintiff's Article 78, the Supreme court (Castellino, J.) hold:
"The Plaintiff seeks to have the determination of February 25, 1998,
annulled and expunged on the basis of the holding in Matter of Howard v.
Coughlin,

212 A.D.2d 852, the Court finds that said holding is not

applicable to this proceeding since there is no evidence in the record that
any prior disciplinary charges filed against the Petitioner in connection
with the incident of August 10, 1996 at ACF were dismissed or expunged".
Appx. D16-18. This finding was wrongful made based, upon defendants false
informations to the Court. See Appx. D4, 6 & 14-15.
later in Plaintiff habeas corpus (Encamacion v. McGinnis, 2002),
defendants informed the District Court, the assault and related charges
were dismissed and expunged at .the start of -the disciplinary hearing.
(Appx. D4, 6). In dismissed his habeas corpus petition, Ihe District Court
i.

,

(Siragusa, J.) ruled that state inmate,have not,due process right at prison
disciplinary tier hearing and- the -double jeopardy is applies only on
criminal proceeds, Encamacion v;: McGinnis. Wrong. Inmates do have due
process and double jeopardy rights ai prison disciplinary tier hearing
under Amendments 5th & 14th; Howard v.vCoughlin, 212 A.D.2d 852, 622 NYS 2d
134 (A.D.3 Dept.1995); Wolff v. McDonnell, 418 US 539 (1974). Also see
Tafari v. Rock, 2012.

'**^07^

Encamacion was SHU for over 11 years from February 17, 1998 to March
9, 2009 when he was released to the general population at GNCF and timely
filed his § 1983 on March 7, 2012 within New york 3 years period statute of
limitation see December 16, 2008 Sick Call Response (SCR) and March 9, 2009
Interdepartmental Communication (IC). Appendix Cl-2.
5

Ehcamacion spent 132 months in SHU and all he did was sit and lay
still all the time "it is not healthy" as the medical director Dr. Kao
admitted in his 2015 responsed letter as well as many many other experts in
the field found unpo studies SHU effect on inmates health physically and
«

mentally. During his over 11 years in solitary in a 8X10 feet cell without
window and any human contact other than DOCS officials, Plaintiff was
denied of hygiene products, daily meals and daily out-door execises etc in
daily basis, he suffers from chronic pains, lost of vision, stomach ulcer,
spine hemic discs, results of deprivation of meals, out-door exercise
daily etc in daily basis and many other mental and physical health
problems.
In the complaint and amended complaint, Plaintiff alleges: 1) his 132
months

SHU confined was

illegal because

it was upheld in second

determination after all charges filed against him were dismissed and
expunged in the first determination in connection with the 8/10/96 incident
at ACF main yard (Appx. D4-6, 14-15). Violated the Supreme Court holding in
Howard v. Coughlin, and the due process-double jeopardy of the Fifth
Amendment;

and

2) that the length and condition of his confinement in

solitary for more than 11 years along with the deprivation of daily meals,
hygiene products, outdoor excercises in daily basis and all human contact
other than DOCS officials, all knew by defendants but fails to step in and
fixed it after known it, was cruel and unusual punishment in violation of
the Eighth Amendment. Farmer v. Brennan, 511 US 825 (1994).
In this case here, the Second Circuit agreed that Ehcarnacion was
subjected to:

a) to double jeopardy and cruel and unusual punishment in

violations of the Fifth and Eighth Amendments and

b) that the length of

SHU confinement cannot be ignored and directing that district court should

6
v

consider the relevance of Ehcamacion s 11 years confinement in SHU and
deprivation of hygiene products and daily meals etc and should have
considered those allegations as part of the overall conditions of his SHU
confinement. Cite: Wlker v, Schult, 717 F.3d 119, 127 (2d Cir. 2013)
/

("[T]he failure to provide prisoners with toiletries and other hygiene
materials may rise to the level of a constitutional violation."); Robles V.
Coughlin, 725 F.2d 12, 16 (2d Cir. 1983) ("[U]nder certain circumstance a
subtantial deprivation of food may well be recognized as being of
constitutional dimension."). Finally, we cannot "discern from the district
court's analysis whether it adequately considered the possibility that the
[alleged condition] offends contemporary standards of decency." Harris v.
Miller, 818 F.3d 49, 65 (2d Cir. 2016). (Ehcaraacion'v. Rock, 280 Fed. Appx.
19 [2d Cir. 2014]; Encamacion v. Goord, 669 Fed. Appx. 61 [2d Cir. 2016]
Appx. A4-8).
The defendants had failed to protect[] Plaintiff froom:

i) double

jeopardy-due process as the defendants admitted to dismissed and expunged
all the charges filed against Plaintiff in the first MR, but upheld the
second determination for same 8/10/96 incident: and

ii) an unusual cruel

and punishment of lengthy SHU and conditions of his confinement all knew by
defendants. At not time did Plaintiff agreed to the SHU confined or to a
second determination or the deprivation of hygiene products, daily meals,
daily out-door exercise etc.
The defendants and the district court knew that Plaintiff is an layman
on matter of law who is limited in his ability to speak and read English
and, in addition, suffers from a vision impairment see Appendix El-4, who
the district court did not afforded the opportunity "to deposed the
defendants, the documentary evidences imedical records, memos etc oredered

7

in May 10, 2017 scheduling order, should have his motion to compel
production of documents include plaintiff's medical records etc and
appointed of pro bono counsel granted. (See Appx. El-4).
STANDARD OF REVIEW
*

EXHAUSTAI0N:

Plaintiff filed grievances, appeals, sent letters and

complaints to prison officials& verbaly notified them of all of the above,
not responsed, was sufficient to, satisfy the exhaustion requirement of the
PLRA, 42 USG § 1997(e0; Encarnacion v. Dann. 80 Fed. Appx. 140 (C.A.2
2003).
STATUTE OF LIMITATION: The defendant incorrect alleged that Plaintiff
was released from SHU on August 16, 2008 and the his § 19983 was untimely:
a) Plaintiff was transferred from SCF SHU to GMCF SHU on Nov. 18, 2008
(Appx. B9), released from SHU on 3/11/09 & filed his § 1983 on 3/7/12
(Appx. Cl-2). The District Court ••(Siragusa, J.) incorrect held: 1) that
plaintiff SHU ended on Nov. 15,2008; 2) that he was in keeplock between
Nov. 15, 2008 and Mar. 9, 2009 (Appx. B6), the documents in Appendix Cl-2
refuted that, there Dr. Karandy states: Dear Sir, ["W]hen you are released
from SHU please notify the medical unit so your boots can be returned to
you." Because inmates can not have boots in the SHU. On Mar. 11, 2009
plaintiff was released from SHU and Dr. Karandy returned his boots that day
(see Appx. C2) and Plaintiff's

§ 1983 was timely filed on Mar. 7, 2012

within the New York 3 years statute of limitation from the date of his
re;eased from SHU on 3/11/09. Appx. Cl-2.
Applying the mailbox rule for statute of limitation purposes. See
Houston v. lack, 487 U.S. 266, 271 (1988) (pro se litigant’s papers are
deemed to have been filed when they are placed in the hands of a prison
official for mailing); Johnson v. Coombe. 156 F. Supp.2d 273, 277 (S.D.N.Y.
2001). Plaintiff Encarnacion's papers was placed in the hands of a prison
official for mailing on Mar. 7, 2012
8

from SHU on March 9, 2009 deemed the filed timely. See Appx. Cl-2. Deemed
both the District Court decision and order of October 27, 2020, granted
judgment in defendants favor and dismissed the case with prejudice as
i

untimely and the Second Circuit Order of May 21, 2021 denied plaintiff's
motions for IFP relief and appointed of pro bono counsel and dismissed his
appeal timely filed sua sponte wrongful made and should be reversed,
vacated and remanded with direction, ouston v. Lack. 487 U.S. 266, 271
[1988]).
DOUBLE JEOPARDY CLAIM:

The double jeopardy claim arosed from a second

determination of prisoner Encarnacion's guilt for violation of prison
disciplinary rules upheld after original determination were dismissed and
expunged at the start of the disciplinary hearing in August 1996 (see Appx.
D4, 6, 14-15). Violated both the Supreme Court decision in Howard v.
Coughlin, 212 A.D.2d 852 and the due process double jeopardy clause of the
Fifth Amendment. (See Appx. D4, 6, 14-20).
CONFLICT OF INTEREST CLAIM:

The conflict of interest claim arosed

from the District Court (Siragusa, J.) wrongful:

1) Upheld plaintiff

second determination of guilt for violation of prison disciplinary rule
after original determination were dismissed and expunged, holding that
state prisoner do not have due process and double jeopardy right at prison
disciplinary hearing (Encamacion v. Moginnis. No. 02-CV-6380): a) state
prisoners do have due process and double jeopardy right at prison
1

disciplinary hearing see Wolff v. McDoimel. 418 U.S. 539; Howard v.
Coughlin, 212 .AD.2d 852; and b) that "prison officials correctly needed
to protect the other prisoners from Encamacion". Wrong, Encarnacion's
institutional records shown that he have never been into any fight with any
other prisoners before or after the fist fights with a serial killer inmate

9

Roberts in 1996, and he was released from SHU into GP with the other
prisoners 5 months after 8/10/96 fist fight and again on 3/9/09; and

2)

sua sponte dismissed with prejudice his § 19983: in August 2012, in
remanded in November 2014, August 2015, in August 2018 and now in October
f

2020, holding the Court found untimely the March 7, 2012 filed because
Encamacion's SHU was ended on November 15, 2008 and he was in keeplock
between November 15, 2008 and March 9, 2009 (Appendix B6), shows conflict
of interest: a) Defendants informed the Court; "Encamacion' s term in the
SHU concluded on March 11, 2009"; b) Appendix Cl-2 shows Plaintiff was in
the SHU between Nov. 18, 2008 and Mar. 11, 2009; and

c) his § 1983 was

timely filed on Mar. 7,2012 within the 3 years statute of limitation. See
Appendix Cl-2.
SUMMARY OF ARGUMENT
Encamacion was in the SHU for five months from Aug. 10, 1996 to Jan.
8, 1997, agaun Encamacion was in the SHU for 133 months, from Feb. 17,
1998 to Mar. 11, 2009 for the same incident of Aug. 10, 1996 at ACF main
yard. During his 11 years in the SHU in solitary, Pliantiff was deprived of
hygiene products, daily meals daily out-door exercises many many times in
daily basis and all human contact other than prison officials for the 11
years in solitary confined in the SHU, after exhausted all his available
administrative remedies, plaintiff timely filed this § 1983 on Mar. 7, 2012
within the 3 years statute of limitation of the date of his released from
the SHU on Mar. 11, 2009, alleging double jeopardy and cruel and unusual
punishment in violation of th Fifth and Eighth Amendmnets.
In Aug. 2012, the district court sua sponte dismissed with prejudice
the cas* Plaintiff appealed. The Second Circuit dismissed and remanded.
Tne District Court sua sponte dismissed with prejudice the case in remanded

10

t

in Nov. 2014 and Aug. 2015. Plaintiff appealed. The Second Circuit
reversed, vacated and remanded with direction. The district court in Oct.
2020 granted judgment in defendants favor and dismissed with prejudice as
untimely.

r

Plaintiff timely appealed. The Second Circuit sua sponte denied his
motions for IFP relief and appointed of pro bono counsel and dismissed
plaintiff's appeal held, because it "lacks an arguable basis either in law
or facts." Cite Neitzka v. Williams, 490 U.S. 319, 325 (1989) (Appx. Al,
also see Appx. A4-8).
Petitioner now petition for Certiorari asks this Court for review of
both the Second Circuit sua sponte dismissa of plaintiff's timely appeal,
because the Second Circuit have already reviewed his § 19^3 twice in appeal
on Sept 23, 2014 and on Oct. 7, 2016 (Appx. A4-8), boding:

"Upon review,

we conclude that the district erred in dismissing Encamacion's amended
complaint sua sponte because it did not consider the overall conditions of
confinement of his SHU sentence. In particular, the District Court failed
to consider the relevance of Encamacion's 11 years confinement in SHU.
Moreover, Encamacion alleged that he was deprived of hygiene products and
"daily meals" while in SHU. The district court also should have considered
those allegations as part of the overall conditions of his SHU confinement.
The failure to provide prisoners with toiletries and other hygienic
materials and foot may rise to the level of a constitutional violation."
Cite Walker v. Schul, 717 F.3d 119, 127 (2d Cir. 2013); Robles v. Coughlin,
725 F.2d 12,16 (2d Cir. 1983), and directed the district court to do so
(Appx. A4-8);

and the District Court decision and order dimissed the his

case finding that the March 7, 2012 filed untimely when the defendants on
they own words have informed the Court that "Encamacion ’ s term of his SHU

11

concluded on March 11, 2009, and Plaintiff's Appendix Cl-2 shown hi was in
the SHU between Nov, 18, 2003 and Mar. 11,2009 when plaintiff was released
fron the SHU on Mar. 11, 2009 and his § 1983 had been timely filed on Mar.
7,2012 within the 3 years statute of limitation of the date of his released
0

from the SHU on Mar. 11, 2009 (Appx. Cl-2); and the conflict of interest
claims alleges by Encarnacionm as the case has been dismissed based on the
statute of limitation without considered the merit of plainyiff's case
directed by the Srcond Circuit la remanded to do so, and to and review said
dismissals and each and every part thereof and every intermediate order
made therein.
If this Court reaches the merits, and found pLaintiff’s March 7, 2012
filed timely within the New York 3 years statute of limitation from the
date of Encamacion’s released from the SHU on March 11, 2009. See Appendix
Cl-2. The Supreme Court had authrity to reversed the Second Circuit's sua
sponte dismissal of plaintiff appeal timely filed, reversed and vacated the
district court dismissal of his case and remanded the case with directions.
Appointed pro bono counsel(s) to represent petitioner Encarnacion in this
civil action and such other and further relief as the Court may deem just
and proper. See Appendix El-5 herein.

12

r

AUGUMENT
POINT I

£

THE COURT HAVE PERSONAL JURISDICTION OVER DEFENDANTS AND JUDICIAL
JURISDICTION OVER THE CASE AS THE COURT OF APPEALS ORDER WAS A FINAL
DECISION AND THIS PETITION TIMELY FILED. RULE 13(1).

The decision of the Second Circuit is dated May 21, 2021 and service
of this decision was received by this plaintiff on May 27, 2013, and
Pursuant to Rule 13(1) of the Supreme Court Rules, an appeal in a final
decision to a Circuit Court must be filed within 90 days. This appeal is
authorized and timely, give this Court jurisdicial jurisdiction over this
appeal and personal jurisdiction over each defendants named herein.
Personal jurisdiction in federal court id initially established by serving
a summons. Covington Indus. Inc, v. Resitex A.G.

629 F.2d 730, 732 (2d

Cir. 1980); Fed R. Civ. P. 4(k)(l).
Note, that the district court declined to considered the merits of
Encarnacion1s claims as directed to do so twice by the Second Circuit in
remanded and wrongful dismissed this action as untimely. See Appx. Cl-2 &
5. This Court have authority to review both the Court of Appeals sua sponte
dismissal order and the District Court wrongful dismissal decision.
If this Court reaches the merits, and aggreed with plaintiff, it
should reversed the Court of Appeals sua sponte dismissal of his appeal
timely filed, reversed, vacated and dismissed the district court dismissal
decision and order and remanded the action back to the District Court with
direction. Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 542 (1985);
Owong v. Okure, 109 S.Ct. 573 (1989); McDough v. Smith,139 S.Ct.1249 (2019)

13

POINT II

THE UNITED STATES COURT OF APPEALS LACKS AUTHORITY TO SUA SPONTE
DISMISSED AN APPEAL TIMELY FILED
•r
The Court of Appeals erred when dismissed plaintiff's timely appeal
sua sponte. Owong v. Okurel 1 109 S.Ct. 573 (1989).
On October 27

2020 the district court greanted judgment on defendants

favor and dismissed the action on a wrongful statute of limitation grounds.
Plaintiff timely filed his appeal on November 24, 2020. Houston v. Lack,
487 U.S. 266, 271 (1988). By Order dated December 8, 2020
Corcuit states:

the Second

"On February 14, 2018 this Court entered an order in 17-

2857, Encarnacion v. Walker requering appellant to file a motion seeking
leave of this Court prior to filing any future appeals. A notice of appeal
in the above referenced case was filed. The Court has no record that
appellant sought the Court's permission to appeal prior to filing the
notice of appeal. IT IS HEREBY ORDERED that this case is dismissed
effective December 29, 2020 unless a motion seeking leave of this Court is
filed by that time". (Appendix A2). On December 24, 2020, Plaintiff filed a
motion seeking leave of this Court. (Appendix A2). On May 21, 2021 the
Court of Appeals sua sponte dismissed Plaintiff's appeal, stated:
Appellant, pro se, moves for leave to appeal, to proceed m forma
pauperis, and for appointment of counsel. Upon due consideration,
it is hereby ORDERED that the motion for leave ^ to appeal is
DENIED as unnecessary. "The leave-to-file sanction that this
Court imposed on Encarnacion provides, "that the Clerk of the
Court refuse to accept for filing any future submissions from
u^P^yd-tijOnejp challenging his fl991j Onondaga County conviction,
rst obtains leave of the Court to file such papers,"
but that conviction is not an issue in this appeal. 2d Cir. 17“
2957, doc 29 (Or.). It is ORDERED that the remaining motions are
DENIED and the appeal DISMISSED because it "lacks an arguable

14

basis either in law or in' fact.” Neitzke v. Williamsl' 490 U.S.
319, 325 (1989); see 28 U.S.C. § 1915(e). (Appx. Al).
The Court of Appeals erred: 1) on dismissed sua sponte plaintiff's
appeal timely filed. The Supreme Court already ruled that the Court of
t

Appeals cannot dismissed sua sponte an appeals timely filed. See Owong v.
Okure, 109 S.Ct. 573 (1989);
and

McDonough v. Smith, 139 S.Ct. 2149 (2019);

2) based on the wrongful untimely ground in the district court s

dismissal decision, the Second Circuit held, the appeal dismissed because
it "lacks an arguable basis either in law or in fact
attorneys for defendants

(Appx. Al):

a) the

(Solicitor General Barbara Underwood

Deputy

Solicitor General Andrew Bing, Assistant Solicitor general Martin Hotvet,
Assistant Solicitor General of Cousel Frederick Brodie, and New York State
Attorney General Eric Schneiderman in the Sept 23, 2016 attorney general’s
Amicus Curiae Brief), informed the Court that Encamacion's fern in the SHU
concluded on March 11, 2009 and he filed his § 1983 on Mar. 7, 2012; and
b) found an arguable basis in law and in fact and recommended the judgment
be vacated and the case remanded for further proceedings without reaching
the merits. Appx. C4-6).
On October 7, 2916, by summary order, the Circuiy panel held:
Unpo review, we conlude that the district erred in. dismissing
Enarnacion's amended complaint sua sponte because it did not
consider the overall conditions of confinement of his SHU
sentence. In particular, the District Court failed to consider
the relevance of Encamacion's 11-years confinement is SHU.
^ggover, Encamacion alleged that he was deprived of hygiene
in SHU. The district court also
^ts and "daily meas while
\
119 (2d Cir. 2013) ("[Tflhe failure to provide prisoners with

15

f

toiletries and other hygienic materials may rise to the level of
a constitutional violation.")? Robles v. Coughlin, 725 F.2d 12,
16 (2djcir. 1983) ("[U]nder certain circumstances a substantial
deprivation of food may well be recognized as being of
constitutional dimension."). Finally, We cannot "discern from the
district court's analysis whether it adequately considered the
possibility that [the alleged violation] offends contemporary
standards of decency." Harris v. Miller, 818 F.3d 49, 65 (2d Cir.
2016). jVacated and remanded the case. (Appx. A4-6).
!

But the' Court of Appeals now in its sua sponte dismissal decision held
it lacks an arguable basis either in law or in facf. Appx. Al. As the Court
may seen, it is correction officials pattern to deprived prisoners of
hygiene products, daily meals, daily out door exercise, even water while in
SHU or keep lock, specially at SC, ECF and GMCF SHU where every things get in
or out the prisoners' cell is by correction officers. See Crichlow v.
Fischer, 2017 WL 920753, where there inmate Crichlow states that while in
keeplock, correction officer were told to not feed him. The same similar
happen to Mr. Encamacion while in SHU werethe correction officers told to
the other officers to not feed him or go to out door exercise or to taken
shower or given him any hygiene products etc. See Appx. A4-8, and Appx. B.
If ] this Copurt reaches the merits and agreed with plaintiff
Encarnacion that the March 7, .2012 filed was timely and the Court of
Appeals sua sponte dismissal of plaintiff's appeal which he timely filed,
it should reversed same, reversed and vacated the district court dismissal
i

decision nad order remanded the case for further proceeding (Owong v.
Okure, 109 S.Ct. 573 (1989); McDonough v. Smith, 139 S.Ct. 2149 (2019);
Supra, Encamacion v. Goord, et al, 20-4070, 12-cv-6180.

i16

POINT III
THIS COURT SHOULD VACATED THE JUDGMENT OF DISRICT COURT GRANTED THE
DEFENDANTS MOTION FOR SUMMARY JUDGMENT AND WITHOUT CONSIDER THE MERITS
OF PLAINTIFF’S CLAIMS DISMISSED THE ACTION AS UNTIMELY AND THE CASE
REMANDED FOR FURTHER PROCEEDING.
*

(

i

The district court erred in granted defendants' motion for summary
i

judgment and dismissed the case as untimely without consider the merits of ‘
Plaintiff's claims with records and evidences includes the defendants and
they attorneys own words in written showns this § 1983 action was timely
i

filed on Marl 7, 2012 Section 1983 3-year statute of limitation.
In support of their statute-of-limitations arguments, Defendants
contend that Plaintiff was released from SHU on August 15, 2008. That
assertion is False. Encamacion was transferred from SCF SHU to GMCF SHU on
November 17, 2008 and released from SHU on March 11, 2009 and his § 1983
2012 under Section 1983 3-year statute of

timely filed on March 7

limitation of date of his released from SHU on Mar. 11,2009. Appx. Cl-8.
In s ipport of its statute-of-limitation dismissal and grnated of
defendants

motion finding,

the District Court (Siragusa,

J.) held:

Plaintiff SHU sentence was supposed ended on February 17, 2009. However,
for reasons that are unlcear in the record (evidently Plaintiff received a
"time cut")J Consequentlly, the last qf Plaintiff's SHU sentences ended on
or about November 15

2008. Thereafter

Plaintiff serve a series of

keeplock between November 15, 2008 and March 11, 2009. The Court's finding
is incorrect.
The records shows:

1) Encamacion received any SHU time cut between

February 17, 1998 and March 11, 2009 instead Defendant Rock without due
process extended Plaintiff SHU terms in the SHU from February 15, 2009 to

17

March 11, 2009;

2) In Septmber 2016, Defendants and they attorneys in they

own words in written informed both the Second Circuit and the District
Court, "Encamacion1 s terms in the SHU concluded on March 11, 2009 and he
filed his § !l983 on March 7, 2012 (Appx. C5); 3) Great Meadow Health care
/

provider Dr. David Karandy in his Sick Call Response dated December 16,
2008, Dr. Karandy states:

Dear Sir, "when you are released from SHU please

notify the medical unit so your BOOts can be returned to you.” (Appx. Cl)
because as the Courts already knew inmates can not have boots in the SHU;
and 4) Dr. karandy returned his (Encarnacion) boots on March 11, 2009 date
of his released from SHU. (Appx. C2). Deemed both the statute of limitation
asserted by J defendants and found the District Court incorrect as well as
the granted of defendants

motion and dismissal of Plaintiff case upon

statute of limitation grounds wrongful made and clearly have prediced
plaintiff and this Court should reversed and vacated the District Court
decision and order of October 27, 2020 and retnaded the case for further
proceeding. See attached Appendixs herein. Also see Encamacion v. Rock,
580 Fed. Appx. 19 (2d Cir. 2014); Encamacion v. Goord, 669 Fed. Appx. 61
(2d Cir. 201 6); Gonzalez v. Hasty, 802 F.3d. 212 (2015); Owong v. okure_, 109
S.Ct. 573 (1989); McDonough v. Smith, 139 S.Ct. 2149 (2015). gant such
other and further relief as may thi Court deem just and proper.

POINT IV
THIS COURT SHOULD REVERSED AND VACATED THE DISTRICT COURT DISMISSAL OF
PLAINTIFF'S DOUBLE JEOPARDY CLAIM, OF HIS CONFLICT OF INTEREST CLAIM
AND APPOINTED OF PRO BONO COUNSEL AND REINSTATED BECAUSE THE DISTRICT
COURT ERRED IN ITS DENIAL AND DISMISSAL.
The disitrict court erred in dismissed plaintiff's denied his motions
18

for recusal upon conflict of interest grounds and appointed of a pro bono
counsel to represented him in this case, as here exist the posibility of
bias. See Caperton v. A.T. Massey Coal Co., Inc., 556 U.S. 865, 129 S.Ct.
2252 (2009)

there the Supreme Court held that in all the circumstances of

this

due

: /

case,

process ' require

recusal,

"the

due

process

clause

incorparated the commun-law rule require recusal when a judge has "a
direct, personal, substantial, pecuriary interst'5 in a case, Tamey v.
Ohio, 273 U.S. 510, but this Court has also identified additional instances
which, of an objective matter, require recusal where "the probability of
actual bias on the part of the judge or decision maker is too high to be
constitutionally tolerate." Withrow v.

Larkin,

421 U.S.

35,

two such

instannces place the present case in proper content.
Here we have first, the Honorable judge Charles J. Siragusa in 2002 in
Encamacion y. McGinnis, No. 02-cv-6380CJS, dismissed his writ of habeas
corpus petition challenging the prison disciplinary hearing on the second
determination

includes

the

double

jeopardy

claim,

ruled

that

state

prisoners do not have due process or double jeopardy rights at prison
disciplinary hearing. Wrong, because state prisoners do have due process
and double jeopardy rights at prison disciplinary hearing see Wolff v^
McDonnell, 418 U.S. 539 (1974); Howard v. Coughlin, 212 A.D.2d 852 (1995);
second,

the

district

court

in

2012

dismissed

Plaintiff's

§

1983

(Encamacion v. Goord, et al., 12-cv-6180) sua sponte holding that his §
1983 is a duplication of his 2002 writ of habeas corpus petition in
Encamacion v. Mcginnis■ the district court dismissed Plaintiff's 1983
again, in 2C14, in 2015, and sua sponte dismissed his double jeopardy claim
in 2018 and in 2020. Said wrongful dismissals clearly shown conflict on
interst as well as established bias because the district court in its early
19 ‘

dismissal decision said thea his § 1983 is a duplication of his 2002 habeas
corpus and Judge Siragusa wrongful dismissed again his double jeopardy
claim sua sponte in 2018 and subsequent wrongful granted defendants motion
and dismissed jthe case as untimely filed on March 7, 2012. See Appx. Cl-6.
i

See

Williams v. -Pennsylvania, 136 S.Ct. 1899 (2016), The Supreme

Court Justice Kennedy, held that:

1) under due process clause there is an

impermissible risk of actual bias when judge early has significant,
i

personal invojlvement as a prosecutor in critical decision regarding a
defendant's case; 2) Pennsylvania Supreme Court justice, who as district
attorney had given approval to seek death penalty against inmate, violated
i

due process by not recusing himself and participating in decision to
reinstate dath sentence;

and

3) Pennsylvania Supreme Court Justice's due

process violation was structural error not subject to harmless-error,
i

regardless of whether has vote was dispositive. Granted and remanded.
Plaintiff Encamacion, pro se, an layman on matter of law who is
limited in his ability to speak and read English and, in addition, suffer
from a visicjn impairment, and who the Honorable Judge Siragusa had
appointed a pro bono counsels with Spanish-English speaker interpreter to

j

represented h|.m in the past in an unrelated civil case, as well as the
United States District Court for the Northern District of New York based on
the above, have appointed a pro bono counsel and interpreter to represent
him in Encamacion v. Annucci, et al.H No. 15-cv-1411 (pending) unrelated
to this case (see Appendix El-5). The court is authorized only to "request
an attorney to represented any person unable to afford counsel." 28 U.S.C.
§ 1915(1); see Mallard v. U.S. Dist. Ct..|! 490 U.S. 296, 298 (1989),
Section 1915(1) does not, permit a federal court to require an unwilling
attorney to represent an indigent litigant in a civil case. See Mallard,

20

490 U.S. at 298, 309. Appointment of pro bono counsel in a case such as
this is therefore contingent upon the availability of an attorney willing
to voluntarily accept and appointment. "If no [one] agrees to represent the
palintiff, there is nothing more the court can do." Rashid v. McGraw, No.
i

r
-

01-cv-10996, 2002 WL 31427349, at *1 n.l (S.D.N.Y. Oct. 29, 2002). Here in
the instant case and this Plaintiff, the federal court did not requested or
attempt to request an attorney to represent Mr. Encamacion in this case
who is unable to afford counsel to represent him in this case

§

1915(e)(1). Also see Rippo v. Baker, supra, 137 S.Ct. 905, upon granting
certiorari, the Supreme Court held that standard for recusal was \diether
risk of bias was too high to be constitutionally tolerable. Certiorari
granted vacated and remanded.

CONCLUSION
The Court of Appeals sua sponte dismissal of Plaintiff's appeal and
the DistrictCourt's granted defendants' motion and dismissed the case
without consider the merits of Plaintiff's claims as untimely should be
i

reversed, vacated and the remanded back to the district court for further
proceedings after this Court reaching the merits of the case and Plaintiff
claims grant such other and further relief as the Court may deem just and
proper.
Dated:

August 10, 2021
Attica, New York
Respectfully Submitted,
I

Bemabe Encamacion, 91 B 0943
Plaintiff-Petitioner Pro Se

639
ruu- Exchange Street, P.0. Box 149
Attica, New York 14011
21

